CASE NO. 20-5172
IN THE SUPREME COURT OF THE UNITED STATES
October 2020 Term
DARRELL WILLIAMS
Petitioner,
v.
JOE COAKLEY, Warden, Hazelton USP
Respondent.
PROOF OF SERVICE
I, Darrell Henry Williams, do swear or declare that on this day, November 24, 2020, as
required by Supreme Court Rule 29,1 have served the enclosed Reply to Government’s Brief in
Opposition to my petition for a writ of certiorari on each party to the above proceeding or that
Party’s counsel, and on every other person required to be served, by delivery to a third-party
commercial carrier for delivery within 3 calendar days. Those served are:
Jeffrey B. Wall, Acting Solicitor General
Department of Justice, Rm 5614
950 Pennsylvania Ave, N.W.
Washington, D.C. 20530
Joe Coakley Warden, USP Hazelton
1640 Sky View Drive
Bruceton Mills, W. Va. 26525
I declare under penalty of perjury that the foregoing is true and correct:
Darrell Henry Williams, pro se
Reg. No. 26008-044
Springfield MCFP
P.O. Box 4000
Springfield, MO 65801-4000
(417) 862-7041
Fax: (417) 837-1717

RECEIVED

NOV 3 0 2020
®FFICE OF THE CLERK
SUPREME COURT, U.S.

